CERTIFICATE OF SERVICE
NO. TBD
Colin Masseau and Emily Mackenzie
Petitioners,
v.
Guy Henning, Brickkicker/GDM Home Services, LLC
Respondents.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the COLIN
MASSEAU AND EMILY MACKENZIE PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and
correct copies of the same by Fedex 2-Day, prepaid for delivery to the following address.
Samantha Lednicky
Catamount Law, PLLC
2 Church St, Suite 4G
Burlington, VT 05402
(888) 570-4492
sam@catamountlaw.com
Counsel for Guy Henning, Brickkicker/GDM
Home Services, LLC

Lucas DeDeus

May 14, 2021
SCP Tracking: Nuovo-401 Water Tower Circle, Suite 101-Cover White

